DOE/IG-0454




         AUDIT
        REPORT

                                    WASTE INCINERATION AT THE
                                 IDAHO NATIONAL ENGINEERING AND
                                   ENVIRONMENTAL LABORATORY




                                              DECEMBER 1999




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                            December 15, 1999



MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "Waste Incineration at the Idaho
                National Engineering and Environmental Laboratory"


BACKGROUND

The Waste Experimental Reduction Facility (WERF) Incinerator is located at the Idaho National Engineering
and Environmental Laboratory (INEEL) in Idaho Falls, Idaho. The primary mission of the incinerator is to
provide mixed waste treatment until a demonstrated, more cost-effective commercial facility is available.
The objective of this audit was to determine whether the Department operated the WERF Incinerator at the
capacity permitted by the State of Idaho.

RESULTS OF AUDIT

The Department did not operate the incinerator at the capacity permitted by the State of Idaho or at the
"attainable" capacity. The attainable capacity represented the more realistic burn rate as determined by
Lockheed Martin Idaho Technologies Company (LMITCO), the contractor operating the incinerator.

Two factors contributed to the shortfall in actual operations relative to the capacity of the incinerator: (1) the
downtime between incineration campaigns was excessive, and (2) the majority of on-site waste was not
sorted, segregated, and characterized for incineration.

Between April 1996 and September 1998 the Department spent $13.5 million to incinerate
786,000 pounds of waste. This equates to about 300,000 pounds per year. Had the Department been
more aggressive in incinerating the waste at INEEL, the 786,000 pounds could have been incinerated in less
than 1 year, at a savings of about $8.4 million. The 786,000 pounds of incinerated waste was well within the
900,000 pound "attainable" annual burn rate established by the contractor. Furthermore, the audit showed
that the waste could be treated more economically at commercial facilities, once these treatment options
become available in June 2000. Consequently, we concluded that the Department could close the WERF
Incinerator in June 2000 and use commercial treatment for the incinerable waste in inventory at that time.
This would be 39 months earlier than planned, and would reduce operating costs by $18.1 million.
                                                    -2-


MANAGEMENT REACTION

Management agreed with the audit finding and two of the three recommendations. Management directed the
contractor to take action to reduce the amount of downtime between incineration campaigns and begin
sorting, segregating, and characterizing the inventory of mixed low-level waste as soon as possible. These
actions are expected to be completed by May 31, 2000.

Management did not concur with the recommendation to close the WERF Incinerator. Management stated
that the decision to close the WERF Incinerator had Departmentwide impact and warranted further
evaluation. Management will study the merits of the recommendation and announce future plans for the
incinerator in June 2000.

We consider management's comments to be responsive. The WERF Incinerator is an expensive treatment
option compared to the commercial options expected to be available in June 2000. Even if the WERF
Incinerator achieves the attainable rate of 900,000 pounds per year, use of the commercial treatment could
save at least $7.8 million for the waste in inventory at INEEL as of September 1999. Because the remaining
waste at INEEL could be treated more economically at commercial facilities rather than at the WERF
Incinerator, the Department should close the incinerator as soon as other treatment options are available.


Attachment

cc: Deputy Secretary
    Under Secretary
WASTE INCINERATION AT THE IDAHO NATIONAL ENGINEERING
AND ENVIRONMENTAL LABORATORY
TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..................................................................1

                Conclusions and Observations.......................................................... 2


                Operating Capacity

                Details of Finding ...............................................................................3

                Recommendations and Comments ..................................................6


                Appendix

                Scope and Methodology.....................................................................8
OVERVIEW

INTRODUCTION AND   The WERF Incinerator was designed in 1982 to incinerate low-level waste.
OBJECTIVE          The facility cost approximately $6 million to build and started operating in
                   1985. Operations were expanded to include mixed waste in 1986. As of
                   1999, the mission of the WERF Incinerator was to incinerate mixed waste
                   until a demonstrated, more cost-effective commercial facility was available.
                   LMITCO currently operates the facility for the Department with a staff of 64
                   employees. The FY 1999 operating budget for the incinerator was $8.5
                   million.

                   The WERF Incinerator operates in a batch mode. Waste is packaged in
                   cardboard boxes and fed into the incinerator in batches. After each
                   generator’s waste has been processed, the incinerator is cooled down and
                   the ash is removed. Waste residuals are usually sent to a commercial facility
                   for disposal. However, if the residuals do not meet the waste acceptance
                   criteria of the commercial disposal facility, they are returned to the generator.

                   The Office of Inspector General (OIG) recently issued two reports on waste
                   incineration. Report DOE/IG-0451, Waste Incineration at the Oak Ridge
                   Reservation (August 1999), concluded that the Department did not operate
                   the Toxic Substances Control Act Incinerator at the capacity permitted by
                   the State of Tennessee. The audit determined that the Department could
                   treat all of the Oak Ridge Reservation's incinerable waste by June 2000 and
                   save $39 million by closing the incinerator 39 months earlier than planned.
                   Also, Report
                   DOE/IG-0453, Waste Incineration at the Savannah River Site (October
                   1999), concluded that the Department did not operate the Consolidated
                   Incinerator Facility at the capacity permitted by the State of South Carolina.
                   The audit determined that the Department could improve the facility’s
                   operating processes to save $595 million and reduce the time required to
                   incinerate the site’s waste from 55 years to 23 years.

                   In addition, the OIG issued a report on the Advanced Mixed Waste
                   Treatment Facility at INEEL, which is to be operational by March 2003.
                   Report DOE/IG-0440, Waste Treatment Plans at the Idaho National
                   Engineering and Environmental Laboratory (February 1999) concluded
                   that waiting until the Advanced Mixed Waste Treatment Facility could
                   process the 3,100 cubic meters of transuranic waste1

                   ______________________________
                   1
                     Transuranic waste generally consists of protective clothing, tools, glassware,
                   equipment, soils, and sludge contaminated with manmade radioisotopes heavier than
                   uranium.

Page 1                                                               Introduction and Objective
                  would be more economical than recharacterizing and disposing of the
                  waste at the Waste Isolation Pilot Plant, and would reduce the environmental
                  risks to INEEL employees. The audit determined that the Department could
                  save $66 million by deferring processing of the transuranic waste until the
                  Advanced Mixed Waste Treatment Facility is operational.

                  The objective of this audit was to determine whether the Department
                  operated the WERF Incinerator at the capacity permitted by the State of
                  Idaho.

                  The Department did not operate the WERF Incinerator at the capacity
CONCLUSIONS AND
                  permitted by the State of Idaho or at the attainable capacity. The attainable
OBSERVATIONS
                  capacity represented the more realistic burn rate as estimated by LMITCO.
                  Two factors contributed to the shortfall in actual operations relative to the
                  capacity of the incinerator. Specifically, operations were limited because the
                  downtime between incineration campaigns was excessive and the majority of
                  on-site waste was not sorted, segregated, and characterized for incineration.

                  Between April 1996 and September 1998, the Department spent about
                  $13.5 million to incinerate 786,000 pounds of waste. Had the Department
                  been more aggressive in incinerating the waste at INEEL, the 786,000
                  pounds could have been incinerated in less than 1 year, at a savings of about
                  $8.4 million. The remaining waste could be treated more economically at
                  commercial facilities, once these treatment options become available in June
                  2000. We concluded that the Department could close the WERF Incinerator
                  in June 2000 and use commercial treatment for the incinerable waste in
                  inventory at that time. This would be 39 months earlier than planned, and
                  would reduce operating costs by $18.1 million.

                  The audit identified issues that management should consider when preparing
                  its yearend assurance memorandum on internal controls.

                                                             (Signed)

                                                          Office of Inspector General




Page 2                                                       Conclusions and Observations
OPERATING CAPACITY

WERF Incinerator is     The Department is permitted to operate the WERF Incinerator at an annual
Permitted to Burn 1.4   capacity of 1.4 million pounds. The annual capacity is determined by
Million Pounds of       multiplying the State of Idaho's hourly permitted rate of 400 pounds by the
Waste Annually          number of hours the facility is available to operate each year. After adjusting
                        for required maintenance and calibrations and the removal of residual waste
                        between burn campaigns, the incinerator is available to operate about 3,600
                        hours per year.

                        Although the permitted capacity is 1.4 million pounds, LMITCO
                        management believed that a more realistic attainable capacity was
                        250 pounds per hour, or 900,000 pounds per year. The attainable capacity
                        reflects the typical mix of waste available for incineration. The amount of
                        waste that can be fed through the incinerator is based on the characteristics
                        of the waste, such as the type of hazardous component, level of radioactivity,
                        and flammability. The attainable capacity was estimated by management
                        without formal analysis.

WERF Incinerator Was    The WERF Incinerator was not operating at either the capacity permitted by
Not Operating at        the State of Idaho or the attainable capacity as estimated by LMITCO
Capacity                management. The following table shows the amount of waste incinerated
                        and the resulting percentages of permitted and attainable capacity used by
                        the facility from April 1996 through September 1998.

                                            Use of WERF Incinerator Capacity
                                                                            1996*        1997         1998

                        Pounds Incinerated (Thousands)                         176         394         216

                        Percent of Permitted Capacity Used                      24          27              15

                        Percent of Attainable Capacity Used                     39          44              24

                        * 1996 data is from April through September because the 24-hours-a-day operation
                        began in April. The permitted capacity for the 6-month period was 700,000 pounds;
                        the attainable capacity was 450,000 pounds.


                        The table shows that the incinerator operated at between 15 and
                        27 percent of its permitted capacity from April 1996 through September
                        1998. Using LMITCO’s attainable capacity as the benchmark, the facility
                        operated at between 24 and 44 percent of capacity. Thus, regardless of the
                        benchmark used, the incinerator did not operate near capacity.

Page 3
                                                                                     Details of Finding
Incinerator Downtime Was   The contractor generally met the Department's performance
Excessive and Most Waste   expectations even though the incinerator was operated at less than
Was Not Prepared for       capacity. The Department established performance goals for
Incineration               FYs 1996 through 1999 requiring that specific amounts of material be
                           treated at WERF in support of the Department's Strategic Plan and in
                           accordance with the requirements of the Government Performance and
                           Results Act of 1993.

                           The WERF Incinerator operated at less than capacity because the
                           downtime between campaigns was excessive and the majority of
                           on-site waste was not sorted, segregated, and characterized for
                           incineration.

                                       Downtime Between Campaigns Was Excessive

                           Incineration activities were limited by the excessive downtime that
                           occurred between incineration campaigns. LMITCO management
                           determined that incinerator workers needed between 7 and 10 days
                           after each incineration campaign for the incinerator to cool down and
                           personnel to remove the residual waste. However, the average amount
                           of time between incineration campaigns from April 1996 through
                           September 1998 was 30 days, or 3 times the requirement established
                           by management.

                           According to FY 1997 and FY 1998 timekeeping records, only
                           49 percent of the operators' time was spent on incineration activities.
                           These activities included incineration, maintenance, and residual ash
                           clean up after each campaign. The incinerator appeared to be idle the
                           remaining 51 percent of the time. Management stated that while the
                           incinerator was not operating, operators spent 28 percent of their time
                           performing other treatment activities such as sizing and compacting low-
                           level waste. According to management, the remaining 23 percent of the
                           operators' time was spent performing training as well as preparation
                           and revision of documentation.

                               Most Waste Was Not Sorted, Segregated, and Characterized

                           Incinerator activities were also limited because most of INEEL's
                           incinerable waste was not sorted, segregated, and characterized for
                           incineration. Incinerable waste must be sorted, segregated, and
                           characterized before a burn plan can be developed for efficient use of
                           the incinerator. INEEL had 465,000 pounds of incinerable mixed

Page 4                                                                          Details of Finding
                          waste in inventory as of September 30, 1999. Approximately
                          98 percent of the waste in inventory had not been sorted, segregated,
                          and characterized for treatment.

                          Management stated that the waste was not sorted and segregated
                          because incinerable and nonincinerable wastes were commingled and
                          the treatment outlet for nonincinerable wastes will not be available until
                          FY 2000. Also, INEEL had to prioritize their funding to meet Site
                          Treatment Plan milestones. Finally, management stated that a
                          significant amount of the incinerable mixed waste that needed to be
                          characterized was only recently classified as mixed waste.

Incineration Costs Were   The Department incinerated 786,000 pounds of waste between April
Excessive                 1996 and September 1998 at a cost of $13.5 million. Had the
                          Department been more aggressive in incinerating the waste at INEEL,
                          the 786,000 pounds could have been incinerated in less than 1 year, at
                          a savings of about $8.4 million.

                          Further, the current waste inventory could be treated under
                          commercial contracts at rates significantly below the cost of WERF
                          incineration. The Department has awarded six contracts for the
                          treatment of mixed waste using various technologies. The technologies
                          are to be available for treatment of the Department's waste by June
                          2000. As of September 30, 1999, INEEL had
                          465,000 pounds of incinerable mixed waste in inventory planned for
                          treatment at the WERF Incinerator. Management stated that it would
                          take approximately 1 year to treat 71,000 pounds of the waste since
                          the waste needed to be repackaged and prepared for incineration.

                          It will cost the Department about $16 million to treat the remaining
                          394,000 pounds of waste at the WERF Incinerator at the rate
                          achieved from April 1996 through September 1998. If the
                          Department were to improve WERF operations and achieve the
                          attainable rate estimated by LMITCO, it would still cost
                          $10.4 million to treat the 394,000 pounds of waste at the WERF
                          Incinerator. By comparison, the cost to treat the 394,000 pounds
                          under the commercial contracts would be $2.6 million. Therefore,
                          using the commercial contracts to treat the waste would cost at least
                          $7.8 million less than using the WERF Incinerator.

                          Because the waste can be treated more economically at the
                          commercial facilities rather than the WERF Incinerator, the

Page 5                                                                            Details of Finding
                      Department should close the incinerator as soon as other treatment
                      options are available. The Department plans to operate the WERF
                      Incinerator through FY 2003. However, by closing the WERF
                      Incinerator in June 2000, rather than September 2003, the
                      Department could avoid operating costs of $18.1 million.

                      The WERF Incinerator must remain open until other treatment options
                      are available. Waste treatment is regulated by the Site Treatment
                      Plan, and the milestones for WERF incineration must be met or the
                      Department will be in violation of the Federal Facilities Compliance
                      Act.

RECOMMENDATIONS       We recommend that the Manager, Idaho Operations Office:

                      1. Require LMITCO to reduce the amount of downtime between
                         incineration campaigns;

                      2. Require LMITCO to sort, segregate, and characterize the
                         inventory of mixed waste as soon as possible to allow the WERF
                         Incinerator to operate more efficiently; and

                      3. Close the WERF Incinerator as soon as other treatment options
                         are in place.

MANAGEMENT REACTION   Management agreed with the audit finding and two of the three
                      recommendations. Management directed the contractor to take action
                      to reduce the amount of downtime between incineration campaigns
                      and begin sorting, segregating, and characterizing the inventory of
                      mixed low-level waste as soon as possible. These actions are
                      expected to be completed by May 31, 2000.

                      Management did not concur with the recommendation to close the
                      WERF Incinerator. Management stated that the decision to close the
                      WERF Incinerator had Departmentwide impact and warranted further
                      evaluation. Management will study the merits of the recommendation
                      and announce future plans for the incinerator in June 2000.

                      In addition, the contractor began actions to increase the efficiency of
                      the operation of the incinerator. The contractor increased the amount
                      of waste in each box and increased the number of waste boxes fed per
                      hour. Management expects these improvements to result in an

Page 6

                                                       Recommendations and Comments
                   increase of approximately 30 percent in the amount of waste placed in
                   each box and an expected increase of 20 percent in the waste feed rate.

AUDITOR COMMENTS   We consider management's comments to be responsive. However, the
                   WERF Incinerator should be closed as soon as other treatment options
                   are in place. The WERF Incinerator is an expensive treatment option
                   compared to the commercial options expected to be available in June
                   2000. Even if the WERF Incinerator achieves the attainable rate of
                   900,000 pounds per year, use of the commercial treatment could save at
                   least $7.8 million for the waste in inventory at INEEL as of September
                   1999. Because the remaining waste at INEEL could be treated more
                   economically at commercial facilities rather than at the WERF Incinerator,
                   the Department should close the incinerator as soon as other treatment
                   options are available.




Page 7                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from February 2, 1999 to October 14, 1999, at
              the INEEL in Idaho Falls, Idaho. The scope of the audit included waste
              incinerated at WERF from April 1996 through September 1998 and plans
              for future waste incineration.

METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed the operating capacity and waste feed limitations for the
                  WERF Incinerator;

              •   Determined the amount of time the incinerator was down for
                  maintenance and calibrations from April 1996 through September 1998;

              •   Determined the amount of waste incinerated from April 1996 through
                  September 1998 and in inventory at the INEEL as of September 1999;

              •   Compared April 1996 through September 1998 operating levels to (1)
                  the capacity permitted by the State of Idaho and (2) the attainable
                  capacity as estimated by LMITCO management; and

              •   Evaluated the Department's performance expectations and measures for
                  the WERF Incinerator between FYs 1996 and 1999.

              The audit was performed in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, the assessment included reviews of
              Departmental and contractor policies, procedures, and performance
              measures related to management and control of WERF incineration activities.
              Because our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our audit.
              We assessed the reliability of computer generated data and found that it was
              reliable.

              We held an exit conference with the Waste Management Program Director
              for INEEL Operations Office and LMITCO's Project Manager for the
              WERF Incinerator on November 18, 1999.




Page 8                                                        Scope and Methodology
                                                                                   IG Report No. : DOE/IG-0454

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        Department of Energy Management and Administration Home Page
                                             http://www.ig.doe.gov


                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
